WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-1334

Bradley Boardman

v.

Governor Jay Inslee, State of Washington, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Jay Inslee, governor of Washington; Robert Hines, Director of the Washington Department of Social and
Health Services; Ross Hunter, Secretary of the Washington Department of Children, Youth, and Families

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

April 23, 2021

(Type or print) Name

Noah Guzzo Purcell
□ Mr.

Firm

Digitally signed by Noah Guzzo Purcell
Date: 2021.04.23 09:20:12 -07'00'

Noah Guzzo Purcell

□ Ms.

□ Mrs.

□ Miss

Washington Office of Attorney General

Address

1125 Washington Street SE

City & State
Phone

Olympia WA

360-753-6200

Zip
Email

98504-0100

noah.purcell@atg.wa.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

